IN THE
SUPREME COURT OF THE UNITED STATES

Hakim Morris
(Your Name)

— PETITIONER

VS.
Jocelyn B. Cate, etc. — RESPONDENT(S)
PROOF OF SERVICE

I,, do swear or declare that on this date,, 20 , as required by Supreme Court Rule 29 I
have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS and
PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding or that
party’s counsel, and on every other person required to be served, by depositing an envelope
containing the above documents in the United States mail properly addressed to each of
them and with first-class postage prepaid, or by delivery to a third-party commercial carrier
for delivery within 3 calendar days.
The names and addresses of those served are as follows: Jocelyn B. Cate 100 Broad St.
Charleston, SC 29401,
Marcine Holmes 50 Cape Dr. Salters, SC 29590,
Central Offices- Child Support Services Division DSS P.O. Box 1469 Columbia, SC 29202

I declare under penalty of perjury that the foregoing is true and correct.
Executed on , 20 £L\

